Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   MEDICARE COMPLIANCE
REVIEW OF MARY WASHINGTON
  HOSPITAL FOR CALENDAR
 YEARS 2009 THROUGH 2011



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Stephen Virbitsky
                                               Regional Inspector General

                                                      October 2013
                                                      A-03-12-06106
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

Mary Washington Hospital did not fully comply with Medicare requirements for billing
inpatient and outpatient services, resulting in net overpayments of approximately $327,000
over 3 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Mary Washington Hospital (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 437-bed hospital located in Fredericksburg, Virginia. Medicare paid the
Hospital approximately $377.4 million for 27,940 inpatient and 204,259 outpatient claims for
services provided to beneficiaries during CYs 2009 through 2011 based on CMS’s National
Claims History data.

Our audit covered $2,677,584 in Medicare payments to the Hospital for 195 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 157 inpatient and
38 outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 142 of the 195 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 53 claims, resulting in net overpayments of $327,180 for
CYs 2009 through 2011. Specifically, 40 inpatient claims had billing errors resulting in net
overpayments of $217,038, and 13 outpatient claims had billing errors resulting in overpayments
of $110,142. These errors occurred primarily because the Hospital did not have adequate
controls to prevent the incorrect billing of Medicare claims within the selected risk areas that
contained errors.


Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                             i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $327,180, consisting of $217,038 in net overpayments
        for 40 incorrectly billed inpatient claims and $110,142 in overpayments for 13 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations and described corrective actions it had taken to address them. The Hospital
did not fully concur with the finding that it had not properly reported credits received for medical
devices originally claimed for outpatient services. The Hospital stated that, for several claims, it
had received a credit only for the leads used with the devices (pacemakers) and that reporting the
credits using the “FB” modifier would have resulted in a reduction in the Medicare payment for
the pacemaker as well as the leads. The Hospital questioned the reasonableness of CMS’s
instructions to use the FB modifier in such cases. However, the Hospital stated that it had
submitted corrected claims for replacement medical devices for which a credit was received.




Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                          ii
                                                     TABLE OF CONTENTS



INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 The Medicare Program ............................................................................................1
                 Hospital Inpatient Prospective Payment System .....................................................1
                 Hospital Outpatient Prospective Payment System ...................................................1
                 Hospital Claims at Risk for Incorrect Billing ..........................................................2
                 Medicare Requirements for Hospital Claims and Payments ...................................2
                 Mary Washington Hospital ......................................................................................2

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................3

           Billing Errors Associated With Inpatient Claims ................................................................3
                   Incorrectly Billed as Separate Inpatient Stays .........................................................3
                   Incorrectly Billed Diagnosis-Related Group Codes ................................................4
                   Incorrectly Billed as Inpatient ..................................................................................4
                   Manufacturer Credits for Replaced Medical Devices Not Reported .......................4

           Billing Errors Associated With Outpatient Claims..............................................................5
                   Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained ...5
                   Incorrectly Billed Number of Units .........................................................................6
                   Incorrectly Billed Outpatient Services With Modifier -59 ......................................6

RECOMMENDATIONS .................................................................................................................6

HOSPITAL COMMENTS ..............................................................................................................6

APPENDIXES

           A: Audit Scope and Methodology ......................................................................................8

           B: Results of Review by Risk Area ..................................................................................10

           C: Hospital Comments ......................................................................................................11




Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                                                                       iii
                                         INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Mary Washington Hospital (the Hospital) complied with
Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                         1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of hospital claims at risk for
noncompliance:

    •   inpatient same-day discharges and readmissions,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient short stays,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims paid in excess of charges, and

    •   outpatient claims billed with modifier -59.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).

Mary Washington Hospital

The Hospital is a 437-bed hospital located in Fredericksburg, Virginia. Medicare paid the
Hospital approximately $377.4 million for 27,940 inpatient and 204,259 outpatient claims for


1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                                       2
services provided to beneficiaries during CYs 2009 through 2011 based on CMS’s National
Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,677,584 in Medicare payments to the Hospital for 195 claims that we
judgmentally selected as potentially at risk for billing errors. These 195 claims consisted of
157 inpatient and 38 outpatient claims with dates of service in CYs 2009 through 2011 (audit
period). We focused our review on the risk areas that we had identified as a result of previous
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements, but
did not use medical review to determine whether the services were medically necessary. This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                             FINDINGS

The Hospital complied with Medicare billing requirements for 142 of the 195 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 53 claims, resulting in net overpayments of $327,180 for
the audit period. Specifically, 40 inpatient claims had billing errors resulting in net
overpayments of $217,038, and 13 outpatient claims had billing errors resulting in overpayments
of $110,142. These errors occurred primarily because the Hospital did not have adequate
controls to prevent the incorrect billing of Medicare claims within the selected risk areas that
contained errors. For the results of our review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 40 of 157 selected inpatient claims, which resulted
in net overpayments of $217,038.

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay onto a single
        claim.

Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                        3
For 13 of the 157 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. Hospital officials stated that the errors occurred because
the manual system of same day discharge and readmission in place at the time was not effective.
As a result of these errors, the Hospital received net overpayments of $77,701. The Hospital
received overpayments of $77,876 (12 claims) and was underpaid $175 (1 claim).

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 11 of the 157 selected claims, the Hospital billed Medicare for incorrect DRG codes.
Hospital officials attributed this to human error made by individual coders. As a result of these
errors, the Hospital received net overpayments of $69,230. The Hospital received overpayments
of $87,817 (8 claims) and was underpaid $18,587 (3 claims).

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)).

For 13 of the 157 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. Hospital
officials stated that the errors occurred because of human error in the billing process, lack of
clear physician documentation supporting admission status, insufficient case manager staffing
and training, and a need to alter the structure and use of physician advisors. As a result of these
errors, the Hospital received overpayments of $53,097. 2

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 3 of the 157 selected claims, the Hospital received reportable credits from manufacturers for
replaced medical devices but did not adjust its inpatient claims with the proper condition and

2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.

Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                                          4
value codes to reduce payment as required. Hospital officials stated that the errors occurred
because of a lack of coordination between the necessary departments, as well as a lack of
communication with manufacturers. As a result of these errors, the Hospital received
overpayments of $17,010.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 13 of 38 selected outpatient claims, which resulted
in overpayments of $110,142.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 3 Federal
regulations also require that all payments to providers of services must be based on the
reasonable cost of services (42 CFR § 413.9). The CMS Provider Reimbursement Manual
(PRM) reinforces these requirements in additional detail. 4

For 9 of the 38 selected claims, the Hospital made errors related to manufacturer credits for
replaced medical devices. Specifically, for seven claims, the Hospital received reportable credits
from manufacturers for replaced medical devices but did not properly report the “FB” modifier.
Also, for six of the seven claims, the Hospital did not properly charge for the replacement
medical device.

For the remaining two claims, the Hospital did not obtain credits for replaced medical devices for
which credits were available under the terms of the manufacturers’ warranties.



3
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).

4
  The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service. If costs are determined to exceed the level that such buyers
incur, in the absence of clear evidence that the higher costs were unavoidable, the excess costs are not reimbursable
under the program.” (part 1, § 2102.1). Section 2103 further defines prudent buyer principles and states that
Medicare providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full or partial
credits or payments available under the terms of the warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost of the equipment supplied.”

Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                                          5
Hospital officials stated that the errors occurred because of a lack of coordination between the
necessary departments, lack of communication with manufacturers, and a misunderstanding of
Medicare billing requirements. As a result of these errors, the Hospital received overpayments
of $102,833.

Incorrectly Billed Number of Units

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (the Act, § 1833(e)). In addition, the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). It also states, “[w]here HCPCS is required, units are entered
in multiples shown in the HCPCS narrative description. For example, if the description for the
code is 50 mg, and 200 mg are provided, units are shown as 4 …” (chapter 17, § 70).

For 2 of the 38 selected claims, the Hospital billed Medicare for more units of human albumin
(HCPCS P9047) than provided. Hospital officials attributed this to an error in the unit
conversion calculation after the Hospital moved to a new financial system. As a result of these
errors, the Hospital received overpayments of $4,561.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). It also states: “The ‘-59’ modifier is used to indicate a
distinct procedural service … This may represent a different session or patient encounter,
different procedure or surgery, different site, or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)” (chapter 23, § 20.9.1.1).

For 2 of the 38 selected claims, the Hospital incorrectly billed Medicare for HCPCS codes with
modifier -59, for services that were already included in the payments for other services billed on
the same claim. Hospital officials stated that, because of a lack of coordination between the
department entering charges and the department coding the services, human errors were not
detected. As a result of these errors, the Hospital received overpayments of $2,748.

                                     RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $327,180, consisting of $217,038 in net overpayments
        for 40 incorrectly billed inpatient claims and $110,142 in overpayments for 13 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                     HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations and described corrective actions it had taken to address them. The Hospital
did not fully concur with the finding that it had not properly reported credits received for medical

Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                          6
devices originally claimed for outpatient services. The Hospital stated that, for several claims, it
had received a credit only for the leads used with the devices (pacemakers) and that reporting the
credits using the “FB” modifier would have resulted in a reduction in the Medicare payment for
the pacemakers as well as the leads. The Hospital questioned the reasonableness of CMS’s
instructions to use the FB modifier in such cases. However, the Hospital stated that it had
submitted corrected claims for replacement medical devices for which a credit was received.
The Hospital’s comments are included in their entirety as Appendix C.




Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                          7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $2,677,584 in Medicare payments to the Hospital for 195 claims that we
judgmentally selected as potentially at risk for billing errors. These 195 claims consisted of
157 inpatient and 38 outpatient claims with dates of service in CYs 2009 through 2011 (audit
period).

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements, but did
not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

Our audit included contacting the Hospital in Fredericksburg, Virginia, during July 2012 through
July 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 195 claims (157 inpatient and 38 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the medical record documentation provided by the Hospital to support the
        selected claims;


Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                           8
    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for submitting Medicare claims;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                           9
                           APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                       Value of           Claims With
                                                     Selected          Selected         Underpayments/            Value of Net
                Risk Area                            Claims            Claims            Overpayments            Overpayments
Inpatient

Same-Day Discharges and Readmissions                       28          $583,440                     13                   $77,701
Claims Billed With High Severity Level
                                                           32            659,877                    11                      69,230
Diagnosis-Related Group Codes
Short Stays                                                74            439,645                    13                      53,097
Manufacturer Credits for Replaced Medical
                                                           23            484,061                      3                     17,010
Devices
 Inpatient Totals                                        157         $2,167,023                     40                $217,038



Outpatient
Manufacturer Credits for Replaced Medical
                                                           25          $468,740                       9               $102,833
Devices
Claims Paid in Excess of Charges                            2               5,701                     2                      4,561

Claims Billed With Modifier -59                            11             36,120                      2                      2,748

 Outpatient Totals                                         38          $510,561                     13                $110,142



 Inpatient and Outpatient Totals                         195         $2,677,584                     53                $327,180


       Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
       outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at the Hospital. Because we have organized the information differently, the information in
       the individual risk areas in this table does not match precisely with this report’s findings.




       Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                                       10
                         APPENDIX C: HOSPITAL COMMENTS




                                      September 13, 2013

VIA FEDERAL EXPRESS
Stephen Virbitsky
Regional Inspector General for Audit Services
U S Department of Health & Human Services
Office of the Inspector General
Public Ledger Building, Suite 316
150 South Independence Mall West
Philadelphia, PA 19106

        Re:     Report Number A-03-12-06106
                Mary Washington Hospital

Dear Mr. Virbitsky:

      I write on behalf of Mary Washington Hospital (the “Hospital” or “Mary
Washington”) in response to the U.S. Department of Health and Human Services, Office
of Inspector General’s (“OIG”) August 20, 2013 draft report entitled Medicare
Compliance Review of Mary Washington Hospital for Calendar Years 2009 Through
2011. Mary Washington is strongly committed to compliance with all applicable
Medicare billing requirements, and we appreciate the opportunity to review and provide
comments on the OIG’s draft audit report.

       We understand, as noted in the draft report, that Mary Washington was selected
for audit as part of the OIG’s ongoing series of hospital compliance reviews. The audit
covered $2,677,584 in Medicare payments to the Hospital for 195 claims (157 inpatient;
38 outpatient) during the 2009-2011 time period that were judgmentally selected as
potentially at risk for billing errors, based on the OIG’s data analysis of nationwide
hospital claims. The OIG determined that the Hospital complied with Medicare billing
requirements for 142 of the 195 claims it reviewed. The OIG’s audit report states that
the Hospital did not fully comply with Medicare billing requirements for the remaining 53
claims, resulting in net overpayments of $217,038 for inpatient claims, and $110,142 for
outpatient claims. The OIG recommended that the Hospital make repayment of
$327,180 to its Medicare contractor and strengthen controls to ensure full compliance
with Medicare requirements.

        We generally agree with the OIG’s findings and have made repayment to
Palmetto GBA in accordance with the OIG’s recommendations.                The following
constitutes the Hospital’s response to the OIG’s specific findings, as noted in the draft
audit report.




Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                 11
Mr. Stephen Virbitsky
September 13, 2013
Page 2


    I.      Billing Errors Associated with Inpatient Claims

            A.      Incorrectly Billed as Separate Inpatient Stays

      The OIG found that the Hospital billed Medicare separately for related discharges
and readmissions within the same day for 13 of the 157 inpatient claims, resulting in net
overpayments of $77,701.

         Hospital Response
         We concur with the OIG's findings and have made repayment as recommended
         by the OIG. During the time period in question, the Hospital had a manual
         process to identify potential same-day readmissions. The Hospital has since
         implemented an automated process to flag potential same-day readmissions for
         evaluation by the case management and billing departments to ensure that
         related same-day readmissions are not separately billed to Medicare.

            B.      Incorrectly Billed Diagnosis-Related Group ("DRG") Codes

        The OIG found that the Hospital billed Medicare for incorrect DRG codes for 11
of the 157 claims, resulting in net overpayments of $69,230.

         Hospital Response
         We concur with the OIG's findings and have made repayment as recommended
         by the OIG. The incorrectly assigned DRG codes were a result of human error
         by individual coders. The Hospital has invested in extensive education and
         training for its coding staff and implemented a Coders Auditing Program to
         conduct quality reviews to ensure compliance with Medicare coding
         requirements.

            C.      Incorrectly Billed as Inpatient

        The OIG found that the Hospital incorrectly billed Medicare Part A for inpatient
stays that should have been billed as outpatient or outpatient with observation services
for 13 of the 157 claims, resulting in net overpayments of $53,097.

          Hospital Response
         We concur with the OIG's findings and have made repayment as recommended
         by the OIG. The incorrectly billed inpatient claims were a result of clerical errors
         by staff, lack of clear documentation by the physician as to the admission status
         designation and justification for the status, the need for further training of case
         managers on admission status and use of the InterQual tool, the need for
         increased staffing levels and coverage of case managers, and a need to alter the
         structure and use of physician advisors. The Hospital has taken numerous steps
         to ensure that Medicare claims are billed with the correct patient status, including
         extensive education of admitting physicians, case management staff, and billing


Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                     12
Mr. Stephen Virbitsky
September 13, 2013
Page 3


          staff related to patient status; updates to physician admission order sets; and
          increasing the Hospital's physician advisor resources.

             D.      Manufacturer Credits for Replaced Medical Devices Not Reported

        The OIG found that the Hospital received reportable credits from manufacturers
for replaced medical devices but did not adjust its inpatient claims with proper condition
and value codes for 3 of the 157 claims, resulting in overpayments of $17,010.

          Hospital Response
          We concur with the OIG's findings and have made repayment as recommended
          by the OIG. These errors occurred because of a lack of communication
          between necessary departments, as well as a lack of communication with
          manufacturers. The Hospital has conducted education of necessary
          departments related to reporting device credits that are received, and has
          implemented new processes to track and monitor the status of device credits.

    II.       Billing Errors Associated with Outpatient Claims

              A.     Manufacturer Credits for Replaced Medical Devices Not Reported
                     or Obtained

      The OIG found that the Hospital did not report device credits it obtained or did
not obtain available device credits for 9 of the 38 outpatient claims, resulting in
overpayments of $102,833.

          Hospital Response
          We have made repayment as recommended by the OIG, but we do not fully
          concur with the OIG's findings that the Hospital failed to properly report obtained
          device credits. CMS' policy on reporting device credits requires hospitals to use
          modifier -FB when it receives full credit for the cost of the replaced device. The
          modifier is appended to the APC on the claim, which triggers a reduction in
          payment for the full cost of the device.
          For several of the claims at issue, the Hospital did not receive a full credit for the
          cost of a pacemaker, but only a credit for a pacemaker lead, which is a less
          costly component of the procedure. Because the modifier is reported on the
          anchoring procedure's APC, the entire reimbursement for the claim is affected,
          even if a patient received a new pacemaker for which no credit was available or
          obtained. CMS' system of discounting the entire procedure's reimbursement
          mistakenly assumes that the Hospital received a credit for the entire device
          (pacemaker and lead), when many times, credit is only available for the lead
          component.
          The Hospital has implemented new processes for properly tracking and obtaining
          device credits when available, including increased communications between


Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                         13
Mr. Stephen Virbitsky
September 13, 2013
Page 4


        departments, and increased communication with manufacturers, to ensure that
        future device credits are properly reported to the Hospital's Medicare contractor.

            B.      Incorrectly Billed Number of Units

       The OIG found that the Hospital billed Medicare for more units of human albumin
than provided for 2 of the 38 outpatient claims, resulting in overpayments of $4,561.

        Hospital Response
        We concur with the OIG's findings and have made repayment as recommended
        by the OIG. This finding can be attributed to an error in the unit conversion
        calculation after the Hospital moved to a new financial system. The system error
        has been corrected and processes have been put in place to ensure that
        conversion calculations are accurate.

            C.      Incorrectly Billed Outpatient Services with Modifier -59

      The OIG found that the Hospital incorrectly billed Medicare for HCPCS codes
with modifier -59 for 2 of the 38 outpatient claims, resulting in net overpayments of
$2,748.

        Hospital Response
        We concur with the OIG's findings and have made repayment as recommended
        by the OIG. This finding can be attributed to human errors that were not
        detected. The Hospital has provided training and education to necessary staff on
        proper use of modifier -59 and implemented processes to ensure that use of
        modifier -59 is monitored for compliance.

       We appreciate the opportunity to respond to the OIG's draft audit report findings,
and appreciate the OIG auditors' professionalism, collaboration, and communication
during the audit process. We believe that the corrective actions the Hospital has taken,
as described above, have strengthened the Hospital's compliance program, especially
with respect to the issues identified in the OIG's draft audit report. If you have any
questions about the Hospital's response to the draft audit report, or need any additional
information, please feel free to contact me.

                                                  Sincerely,

                                                 /Jina Haikey/

                                                  Jina Haikey
                                                  Senior Vice President
                                                  Regulatory Affairs and Risk Management
                                                  Corporate Compliance Officer



Medicare Compliance Review of Mary Washington Hospital (A-03-12-06106)                     14
